No. 20-1381
3In the

supreme Court of tbe Eittiteb Stateo
MATTHEW FOX, PROSECUTING ATTORNEY, MERCER
COUNTY, OHIO, JEFF GREY, SHERIFF, MERCER
COUNTY, OHIO AND J.K.,
Petitioners,
v.
CHARLES A SUMMERS,
Respondent.
On Petition For A Writ of Certiorari
To The Supreme Court of Ohio
BRIEF IN OPPOSITION

H. LOUIS SIRKIN
Counsel of Record
JOHN D. HOLSCHUH III
SANTEN & HUGHES
600 Vine Street

Suite 2700
Cincinnati, OH 45202
(513) 721-4450
hls@santenhughes.com
Counsel for Respondent

May 3, 2021
Becker Gallagher • Cincinnati, OH Washington, D.C. • 800.890.5001

1

QUESTION PRESENTED
Whether the substantive due process right to
privacy under the Fourteenth Amendment enables a
state's adult trial witness to block the release of public
records related to state criminal investigations and
trials?

11

LIST OF PARTIES
Elizabeth A. Well (0087750)
(Counsel of Record)
Christopher D. Woeste
Ohio Crime Victim Justice Center
3976 North Hampton Drive
Powell, Ohio 43065
(614)-848-8500
ewell@ocvjc.org
Counsel for Petitioner J.K.
Amy B. Ikerd (0067067)
Matthew Fox
Assistant Prosecuting Attorney, Mercer County
119 North Walnut Street
Celina, Ohio 45822
(419) 586-8677
amy.ikerd@mercercountyohio.org
Counsel for Petitioners Fox and Grey
H. Louis Sirkin (Ohio Sup. Ct. No. 0024573)
(Counsel of Record)
John D. Holschuh III (Ohio Sup. Ct. No. 0095377)
SANTEN & HUGHES
600 Vine Street, Suite 2700
Cincinnati, Ohio 45202
(513) 721-4450
hls@santenhughes.com
Counsel for Respondent Charles Summers

111

TABLE OF CONTENTS
QUESTION PRESENTED
LIST OF PARTIES
TABLE OF AUTHORITIES

ii
vi

CITATIONS OF THE OFFICIAL AND
UNOFFICIAL REPORTS OF THE OPINIONS
AND ORDERS ENTERED IN THE CASE BY
COURTS AND ADMINISTRATIVE AGENCIES
STATEMENT AGAINST JURISDICTION

vi

CONSTITUTIONAL PROVISIONS, TREATIES,
STATUTES, ORDINANCES, AND REGULATIONS
INVOLVED IN THE CASE
1
STATEMENT OF THE CASE

2

SUMMMARY OF THE ARGUMENT

4

ARGUMENT

5

Statement of Facts and Procedural Posture
5
II.

Caselaw and Analysis

8

A. There is no privacy right allowing a
state's witness to block the release of
public records related to a public trial . . . 8
1. J.K.'s position conflicts with this
Court's precedent
9

iv
J.K.'s position conflicts with every
circuit court's jurisprudence
12
J.K.'s proposed right to privacy is
unsuitable for the American justice
system and unduly interferes with
other citizens' rights
16
Ohio's Public Records Act is narrowly
tailored to a compelling government
interest
18
Petitioners lack Article III standing . . . 22
This case is a poor vehicle for resolving this
issue
24
There is no compelling reason to review this
issue now
26
Conclusion

26

APPENDIX
Appendix A R.C. § 149.43

App. 1

vi
TABLE OF AUTHORITIES
CASES
Anderson v. Blake,
469 F.3d 910 (10th Cir. 2006)

13

Arizonans for Off. Eng. v. Arizona,
520 U.S. 43 (1997)

24

Bloch v. Ribar,
156 F.3d 673 (6th Cir. 1998)

13, 14, 15, 19

City of Los Angeles v. Lyons,
461 U.S. 95 (1983)

23

Gladstone Realtors v. Vill. of Bellwood,
441 U.S. 91 (1979)

23

Globe Newspaper Co. v. Superior Court,
457 U.S. 596 (1982)

19

Heald v. District of Columbia,
259 U.S. 114 (1922)

22

Iron Arrow Honor Socji v. Heckler,
464 U.S. 67 (1983)

24

J.P. v. Desanti,
653 F.2d 1080 (6th Cir. 1981)

14

Lambert v. Hartman,
517 F.3d 433 (6th Cir. 2008)

14

Lexmark Int'l v. Static Control Components, Inc.,
572 U.S. 118 (2014)
22
NASA v. Nelson,
562 U.S. 134 (2011)

passim

vii
Nixon v. Administrator of General Services,
433 U.S. 425 (1977)

11, 12

Parents for Priv. v. Barr,
949 F.3d 1210 (9th Cir. 2020), cert. denied sub
nom. Parents for Priv. v. Barr,
141 S. Ct. 894 (Dec. 7, 2020)
26
Paul v. Davis,
424 U.S. 693 (1976)

9, 10, 12

Press-Enter. Co. v. Superior Ct. of California,
Riverside Cty., 464 U.S. 501 (1984)
State ex rel. Caster v. City of Columbus,
89 N.E.3d 598 (Ohio 2016)

19

15, 17, 19

State v. Summers,
21 N.E.3d 632 (Ohio Ct. App. 2014)

5

State of Ohio v. Rasawehr,
Celina M.C. No. 16CRB00943

20

Whalen v. Roe,
429 U.S. 589 (1977)

10

Willner v. Comm. on Character and Fitness,
373 U.S. 96 (1963)

16, 25

CONSTITUTION AND STATUTES
U.S. Const. Amend. XIV
42 U.S.C. § 1983
O.R.C. § 149.43

passim
9, 13, 14
passim

viii
CITATIONS OF THE OFFICIAL AND
UNOFFICIAL REPORTS OF THE OPINIONS
AND ORDERS ENTERED IN THE CASE BY
COURTS AND ADMINISTRATIVE AGENCIES
State ex rel. Summers v. Fox, Pros. Atty., et al., 2020
WL 7250544, 2020-Ohio-5585, (Ohio 2020).
State ex rel. Summers v. Fox, 159 N.E.3d 1181 (Ohio
2020).
State ex rel. Summers v. Fox, 142 N.E.3d 684 (Ohio
2020).

ix
STATEMENT AGAINST JURISDICTION
This Court lacks Article III jurisdiction as
Petitioners lack standing to raise their claims. See
infra, Argument, sec. II(C).

1
CONSTITUTIONAL PROVISIONS, TREATIES,
STATUTES, ORDINANCES, AND
REGULATIONS INVOLVED IN THE CASE
Fourteenth Amendment of the United States
Constitution:
No State shall make or enforce any law which shall
abridge the privileges or immunities of citizens of
the United States; nor shall any State deprive any
person of life, liberty, or property, without due
process of law; nor deny to any person within its
jurisdiction the equal protection of the laws.
Ohio Revised Code § 149.43 (effective October
17, 2019 to March 23, 2021):
See Respondent's Appendix I.

2
STATEMENT OF THE CASE
This is a state mandamus action initiated by
Respondent Charles Summers ("Mr. Summers") in
which the Supreme Court of Ohio ordered state officials
to produce public records related to the trial of Mr.
Summers' son, Christopher Summers, pursuant to
Ohio's Public Records Act. See generally State ex rel.
Summers v. Fox, Pros. Atty., et al., 2020 WL 7250544,
2020-Ohio-5585 (Ohio 2020), Petitioner J.K.'s App. 1;
Ohio Revised Code § 149.43 (effective October 17, 2019
to March 23, 2021), Respondent's App. 1.1 Petitioner
J.K. ("J.K."), the State's witness in Christopher
Summers' trial, intervened during the state
proceedings, asserting her right to privacy should block
the release of the public records. The Supreme Court of
Ohio unanimously rejected her argument. Now, lacking
Article III standing, Petitioners ask the Supreme Court
to reverse decades of Fourteenth Amendment
jurisprudence.
While J.K. exhaustively compares herself to child
witnesses, Christopher Summers' convictions for sexual
battery were based on a twenty-eight-month teacherstudent relationship that started when J.K. was a
junior in high school. J.K. was not a child at the time
she spoke to police and prosecutors, then publicly
testified at Christopher Summers' criminal trial. Nor
did any court order the disclosure of video,

' Respondent's Appendix 1 contains the version of O.R.C. § 149.43
in effect at the time of the Supreme Court of Ohio's decision in this
case.

3
photographic, or audio recordings of J.K.'s sexual
conduct.
Neither this Court, nor any federal court of appeals,
has held that a person's "right to informational
privacy" should block the release of public records
when doing so has a penological purpose, like the
release of public investigation and trial records
released here. Assuming arguendo that a state's
witness does have some substantive due process right,
Ohio's Public Records Act is narrowly tailored to a
compelling government interest (i.e., the public's
oversight of the state's investigative, prosecutorial, and
judicial functions). The Petitioners also lack Article III
standing as J.K. has suffered no constitutional injury
in this case; Mr. Summers has not caused her injury;
and the case is moot, as Ohio government officials have
claimed Mr. Summers has received all the public
records J.K. seeks to prevent from being disclosed.
Lastly, even if the Court finds merit in the
Petitioners' argument, this case is an inappropriate
vehicle to manufacture a broad right to informational
privacy. Just last session the Court denied a similar
petition for a writ of certiorari seeking to expand the
right to privacy under the Fourteenth Amendment.
The Court should likewise deny this Petition for
Certiorari.

SUMMMARY OF THE ARGUMENT
J.K. has no privacy right that was affected by the
Ohio Supreme. Court decision. Even if she did, Ohio's
Public Records Act is narrowly tailored to a compelling
government interest. Moreover, Petitioners lack Article
III standing in this case. Should the Court find merit in
Petitioners' argument, this case is not the vehicle to
recognize the vast right to informational privacy that
they request, and there is no urgency to manufacture
this alleged constitutional right at this time.

5
ARGUMENT
I.

Statement of Facts and Procedural Posture

On February 1, 2017 Respondent, Charles
Summers, submitted a public records request to Mercer
County, Ohio Prosecutor Matthew Fox ("Fox"),
pursuant to Ohio Revised Code ("O.R.C.") § 149.43
requesting documents and recordings related to Mercer
County's investigation and prosecution of Mr.
Summers' son, Christopher Summers. State ex rel.
Summers v. Fox, Pros. Atty., et al., 2020 WL 7250544,
*2, 2020-Ohio-5585, II 14 (Ohio 2020). Christopher
Summers was convicted of sexual battery in 2013 after
pleading guilty to actions occurring during a twentyeight-month relationship that started when J.K. was a
junior in the high school where he taught. Id., 2020 WL
7250544 at *1, 2020-Ohio-5585 at ¶¶ 1-3; State a
Summers, 21 N.E.3d 632, 633-34 (Ohio Ct. App 2014).
Christopher Summers pled guilty following J.K.'s
public testimony at his criminal trial. State a
Summers, 21 N.E.3d at 637.
J.K. was not a minor when she spoke to law
enforcement officers investigating Christopher
Summers' case. Id., 21 N.E.3d at 637. Nor was she a
minor when J.K. publicly testified at trial accusing
Christopher Summers of violating state law. Id., 21
N.E.3d at 637. Mr. Summers viewed the twenty-oneyear prison sentence as draconian,2 and sought public
2 See generally State u. Summers, 21 N.E.3d 632 (Ohio Ct. App.
2014); State u. Summers, 2014 WL 2567924, 2014-Ohio-2441 (Ohio
Ct. App. 2014) Jaddressing Christopher Summers' appeal
challenging his sentences). Following J.K.'s trial testimony and

6
records related to how the state conducted its
investigation and prosecution of his son. See State ex
rel. Summers, 2020 WL 7250544 at **2-3, 2020-Ohio5585 at II 14-15. By the time Mr. Summers submitted
his first public records request, Christopher Summers'
appellate remedies had been exhausted. Id., 2020 WL
7250544 at **1, 2, 2020-Ohio-5585 at ¶¶ 5-6, 14.
Fox sent Mr. Summers a response with a blanket
refusal to produce any documents. Id., 2020 WL
7250544 at *3, 2020-Ohio-5585 at ¶ 16. Mr. Summers
submitted another public records request to Mercer
County Sheriff Jeff Grey ("Grey"), on March 6, 2017.
Id., 2020 WL 7250544 at *3, 2020-Ohio-5585 at ¶ 15.
This public records request also requested documents
and recordings related to Mercer County's investigation
and prosecution of Christopher Summers. Id. The
Mercer County Prosecuting Attorney's Office sent a
response to Mr Summers on Grey's behalf again
refusing to produce a single document. Id., 2020 WL
7250544 at *3, 2020-Ohio-5585 at ¶ 16.
On May 4, 2017 Mr. Summers sent a third letter to
the Mercer County Prosecutor's Office responding to its
letters. Id., 2020 WL 7250544 at *3, 2020-Ohio-5585 at
¶ 16. On May 31, 2017, the Mercer County Prosecutor's

Christopher Summers' guilty pleas to eight counts of sexual
battery in Mercer County and one count of sexual battery in Darke
County, Christopher Summers was sentenced to thirty months on
each of the eight counts in Mercer County, along with an
additional year for the sexual battery plea in Darke County,
resulting in an aggregate prison term of twenty-one years to be
served consecutively for the alleged sexual battery of J.K.
Summers, supra, 2014 WL 2567924 at *1, 2014-Ohio-2441, at ¶ 3.

7
Office replied, again refusing to produce any
documents. Id., 2020 WL 7250544 at *3, 2020-Ohio5585 at ¶ 17. In their responsive letters, Mercer County
did not raise J.K.'s alleged right to privacy as a reason
for blocking the release of the public records.
Mr. Summers filed a mandamus action against Fox
and Grey in the Supreme Court of Ohio on July 12,
2018. Id., 2020 WL 7250544 at *3, 2020-Ohio-5585 at
if 18. J.K., Petitioner here and the State's witness in
Christopher Summers' criminal case, filed a motion to
intervene, which was granted by the Supreme Court of
Ohio. Id., 2020 WL 7250544 at *3, 2020-Ohio-5585 at
11 19. Additionally, The National Crime Victim Law
Institute, The Ohio Domestic Violence Network, The
Ohio Alliance to End Sexual Violence, the Buckeye
State Sheriffs' Association, and the Ohio Prosecuting
Attorneys Association submitted amici briefs in
support of J.K., Fox, and Grey. Id., 2020 WL 7250544
at *3, 2020-Ohio-5585 at ¶ 20.
The Supreme Court of Ohio granted Mr. Summers
a Writ of Mandamus on December 10, 2020, except for
two prosecutorial trial preparation interviews. Id.,
2020 WL 7250544 at *14, 2020-Ohio-5585 at 1189. The
public records ordered to be disclosed did not contain
any explicit videos, photos, or audio recordings of
sexual conduct. Not a single justice held that a victim's
"right to privacy" under the Fourteenth Amendment of
the U.S. Constitution should block the release of the
public records. See id., 2020 WL 7250544 at **15-17,
2020-Ohio-5585 at at 111190-107 (French, J., concurring
in part and dissenting in part). Respondents' Joint
Motion for Reconsideration was denied on December

8
30, 2020. State ex rel. Summers v. Fox, 159 N.E.3d 1181
(Ohio 2020). Respondents filed a Motion for Stay on
January 12, 2021, which has not been ruled on at the
time of the filing of this response. See Motion for Stay,
State ex rel. Summers v. Fox, Sup. Ct. Ohio Case No.
2018-0959 (filed Jan. 12, 2021).3
In the meantime, Fox has claimed that Mr.
Summers has received all the public records he
originally requested from Mercer County, either
through Mercer County's surrender of materials in this
case or through other Public Records Act responses
provided by the Darke County Prosecutor. Mr.
Summers has not sought a review of the Ohio Supreme
Court's refusal to order Grey and Fox to produce the
trial preparation interviews.
II.

Caselaw and Analysis
A. There is no privacy right allowing a
state's witness to block the release of
public records related to a public trial

J.K. misinterprets federal caselaw and requests the
Court to reverse decades of Fourteenth Amendment
jurisprudence with an unprecedented interference in
states' rights to determine the public's access to state
public records. J.K.'s false equivalencies comparing
herself to child witnesses and victims who have not
publicly testified in criminal cases result in incorrect

The Supreme Court of Ohio's docket for State ex rel. Summers u.
Fox, et al., Case No. 2018-0959 (filed July 12, 2018) can be accessed
at https://www.supremecourt.ohio.gov/Clerkkemstiticaseinfo/2018/
0959.

9
foundational premises that undermine her argument.
No federal court has ever held that a state's witness
who publicly testifies in a criminal trial can block the
release of public records related to the trial that the
public is entitled to under state law. While J.K.'s
summary of caselaw points to a possible circuit split as
to whether crime victims have a right to block public
officials from gratuitously releasing explicit sexual
information unrelated to a public prosecution, the
issues raised by J.K. do not fall within the spectrum of
this possible circuit split. Even the Sixth Circuit (whose
view is most favorable to her position) has not held a
person's, right to informational privacy can block the
release of public records when the release of the
documents serves a penological purpose, as it does
here. In effect, J.K. requests this Court ignore Mr.
Summers and other citizens' rights to receive public
records under state law in favor of an invented right
she has manufactured.
1. J.K.'s position conflicts with this
Court's precedent
J.K. asks the Court to overrule each of its four cases
she cites as support for her position. In Paul v. Davis,
a 42 U.S.C. § 1983 case, the plaintiff asserted his right
to privacy was violated when the defendant police
chiefs defamed him by disseminating flyers to local
businessmen that publicized criminal shoplifting
charges that had not resulted in a criminal conviction.
424 U.S. 693, 694-95 (1976). While acknowledging that
"the Court has recognized that 'zones of privacy' may be
created by more specific constitutional guarantees and
thereby impose limits upon government power," it also

10
recognized that the plaintiffs claim was not based
"upon any challenge to the State's ability to restrict his
freedom of action in a sphere contended to be 'private,'
but instead on a claim that the State may not publicize
a record of an official act such as an arrest." Id. at 712713 (emphasis added). The Court refused to recognize
this alleged right. Id. at 713.
In Whalen v. Roe, the Court unanimously rejected
claims by patients and doctors who challenged the
constitutionality of a New York statute that required
prescriptions for certain controlled substances to
contain a form reporting some of the patient's private
information to state officials. 429 U.S. 589, 589-590,
598-604 (1977). The statute at issue prohibited the
public disclosure of the identity of the patients. Id. at
594. The Court refused to "decide any question which
might be presented by the unwarranted disclosure of
accumulated private data whether, intentional or
unintentional or by a system that did not contain
comparable security provisions," finding that the record
did not present this issue. Id. at 605-06 (emphasis
added). The Court's admirable concern was about New
York's unprecedented collection of the private
information of medical patients (that may have
resulted in unintentional, unauthorized leaks of those
patient's medical information), which presenting novel
issues related to government data collection on citizens.
See id. at 605. This is a far cry from a witness trying to
block the release of state records related to a public
criminal trial.
The Court also rejected claims by President Nixon
that his right to privacy superseded the Presidential

11
Recordings and Materials Preservation Act. See Nixon
v. Administrator of General Services, 433 U.S. 425, 455465 (1977). The Court held the President "cannot assert
any privacy claim as to the documents and tape
recordings that he has already disclosed to the public."
Id. at 459 (emphasis added). The Court noted that the
screening of private documents by public officials did
not violate alleged privacy rights, and instead implied
that screening could be used as evidence that alleged
privacy rights were sufficiently protected. See id. at
463-65.
Most recently, the Court once again refused to
acknowledge a privacy right to prevent the collection of
private information in NASA v. Nelson. 562 U.S. 134
(2011). There, NASA contract employees challenged
whether NASA could require the employees to complete
security background questionnaires requesting
personal information about the employees' school,
employment, drug treatment, and housing history. Id.
at 138, 141-42. The Court noted that while it had
previously "referred broadly to a constitutional privacy
`interest in avoiding disclosure of personal matters,' [...
s]ince Nixon, the Court has said little else on the
subject of a constitutional right to informational
privacy." Id., at syllabus, ¶ 1; id., 562 U.S. at 144-46.
While refusing to acknowledge such an alleged right,
the Court rejected the employees' claims under a
rational basis standard. Id., at syllabus, '11 2; id., 562
U.S. at 138, 151-52.
J.K. requests the Court adopt a right to privacy that
it explicitly refused to acknowledge only ten years ago.
See Nelson, supra, at syllabus, ¶ 2; id., 562 U.S. at 138,

12
151-52. Moreover, without proffering any
conceptualization of this right, she claims it should
allow her to block the release of public records, not
simply to limit the intrusion of the government on her
personal life. The Court specifically rejected this
proposal in Paul v. Davis. See 424 U.S. at 712-713.
J.K. must acknowledge that by publicly testifying
against Christopher Summers, she has sacrificed some
of her privacy like President Nixon, and therefore she
"cannot assert any privacy claim as to the documents
and tape recordings that [s]he has already disclosed to
the public." Nixon, 433 U.S. 425 at 459. Like the
Presidential Recordings and Materials Preservation
Act, Ohio's Public Records Act provides for exceptions
to protect J.K.'s privacy, and state officials and courts
can conduct non-public screenings of the requested
records. See O.R.C. § 149.43(B)(1) (permitting state
officials to redact or not produce documents subject to
the Public Records Act's numerated exceptions); State
ex rel. Summers v. Fox, 142 N.E.3d, 684-85 (Ohio 2020)
(permitting in-camera inspection by the Court of
documents withheld by Fox and Grey in this case).
J.K.'s arguments cannot survive in the face of the
overwhelming Supreme Court precedent condemning
her position.
2. J.K.'s position conflicts with every
circuit court's jurisprudence
J.K. acknowledges that the recent trend among
federal circuit courts is to not recognize any
constitutional right to informational privacy following
this Court's decision in Nelson. See J.K.'s Petition for
Writ of Certiorari, pp. 11-13. Instead, she once again

13
heavily relies on the Sixth Circuit's pre-Nelson case
Bloch v. Ribar, 156 F.3d 673 (6th Cir. 1998). But J.K.'s
interpretation of outdated Sixth Circuit precedent is
incorrect, and still does not support her claim that a
state's witness has a privacy right to block the release
of records related to public investigations and trials.
Bloch involved a 42 U.S.C. § 1983 retaliation claim
where a sheriff released intimate and undisclosed
details of an unprosecuted rape in retaliation for the
complainant speaking with media about the failure to
prosecute, and there "was no nexus between the details
of the rape released by [the sheriff] and the Blochs'
criticism of the investigation." Id. at 673. The Sixth
Circuit noted that "the government's interest in
disseminating the information must be balanced
against the individual's interest in keeping the
information private" and that "the details of the rape
primarily implicate a private interest until such time as
the public interest in prosecution predominates." Id. at
684, 686 (emphasis added). As J.K. admits, the only
privacy right endorsed by the Bloch court is a right to
prevent "government officials from gratuitously and
unnecessarily releasing the intimate details of the rape
where no penalogical [sic] purpose is being served." Id.
at 686 (emphasis added).
Similarly, Anderson v. Blake was also a pre-Nelson
42 U.S.C. § 1983 case dealing with a victim who had
not testified in public hearings and who claimed "that
there was no law enforcement purpose in defendant's
release of [a] video" that contained graphic imagery of
her rape to a news reporter who aired the rape video.
Anderson v. Blake, 469 F.3d 910, 912-13 (10th Cir.

14
2006). In Lambert v. Hartman, yet another pre-Nelson
case, the Sixth Circuit rejected the plaintiffs claim that
the publication of a traffic citation with her unredacted
social security number had violated her right to
privacy, as "her alleged privacy interest was not of a
constitutional dimension." 517 F.3d 433, 435 (6th Cir.
2008).
Contrary to her assertion, the Ohio Supreme Court
properly analyzed and rejected her arguments that
Bloch is a public records case and that there is a
L substantive due process right under the United States
Constitution for a state's witness to block the release of
public records. See State ex rel. Summers, 2020 WL
7250544 at *7, 2020-Ohio-5585 at ¶ 41 ("Bloch is not a
public-records case and it did not create the categorical
exception to disclosure under federal law required by
R.C. § 149.43(A)(1)(v)."). J.K. provides no evidence
supporting her claim that a trial witness' alleged right
to block public records about a public trial are
"fundamental" or "implicit in the concept of ordered
liberty." See J.P. a Desanti, 653 F.2d 1080, 1088 (6th
Cir. 1981) (citing Paul, 424 U.S. at 713); see also
Lambert, supra, 517 F.3d at 440 ("This court, in
contrast to some of our sister circuits, has narrowly
construed the holdings of Whalen and Nixon to extend
the right to informational privacy only to interests that
implicate a fundamental liberty interest.") (internal
quotations omitted). J.K. publicly testified in the
prosecution against Christopher Summers, waiving any
alleged privacy right she claims under Bloch. The Ohio
Supreme Court has espoused the penological purposes
of public records requests in allowing public oversight
over criminal prosecutions, including exonerating

15
wrongfully convicted prisoners. See State ex rel. Caster
v. City of Columbus, 89 N.E.3d 598, 601, 608-9 (Ohio
2016) (detailing exonerations resulting from public
records requests and emphasizing that one of the main
concerns when addressing Public Records Act requests
is "the interests of justice."). Bloch does not create any
privacy right that would bar disclosure of public
records that would not otherwise be prohibited from
disclosure under Ohio's Public Records Act.
Despite scores of pages of pleadings in state court,
J.K., Fox, and Grey have failed to point to any federal
court case that blocked the release of public records
under state law based on a state's witness' alleged
right to privacy under the Fourteenth Amendment of
the United States Constitution. The cases cited by
Respondents hold that a government official cannot
gratuitously release records about details of a victims'
sexuality if no related crime has been charged and the
victim has not testified in public court. On the other
hand, there is a penological purpose to releasing the
records when a state's witness has testified in public
court, in addition to the fundamental public interest in
government transparency. See State ex rel. Caster,
supra, 89 N.E.3d at 601, 608-9.
Thus, J.K.'s position does not even lay within the
spectrum of her claimed circuit split. Instead, she is
requesting a radical reinterpretation of the "right to
privacy." Adopting her interpretation of this right
would overrule each of this Court's opinions (including
its 2011 opinion in NASA v. Nelson) along with every
circuit's caselaw on the issue.

16
3. J.K.'s proposed right to privacy is
unsuitable for the American justice
system and unduly interferes with
other citizens' rights

J.K.'s central fallacy lies in her misguided belief
that after making public accusations against
Christopher Summers at a public criminal trial, she is
not a semi-public figure. To the contrary, she has
placed herself at the center of the most public of
government forums, and now has elevated the case to
a nationwide stage. Her public actions as an adult have
contributed to a man's loss of liberty. Thus, for the
purposes of Ohio's sunshine law, records related to her
public accusations are public records, with the
exception of documents specifically identified by the
Ohio legislature to protect J.K.'s privacy.
J.K. relishes in her imagined privacy right while
ignoring Mr. Summers' and other citizens' concrete
constitutional rights. Mr. Summers, like other citizens,
has a right to request public records under Ohio law.
Procedural due process prevents states from arbitrarily
refusing to provide public records without proper
notice. See Willner v. Comm. on Character & Fitness,
373 U.S. 96, 105 (1963) (holding that a state bar was
required to provide notice and hearing on grounds for
rejection of bar application). In this case, no notice was
provided to Mr. Summers that his Public Records Act
request was being rejected due to J.K.'s "right to
privacy" before his mandamus action was filed. Failure
to provide such notice is a procedural due process
violation that cannot be sanctioned.

17
To be clear, Mr. Summers is not seeking
information about J.K.'s private sexual conduct
unrelated to Christopher Summers' trial — he only
seeks information about the State's investigation of his
son that resulted in his public trial and conviction.
While reporters and innocence projects often seek
public records to uncover' injustices,! so too do the
family members of convicted inmates. Family members
are often the last members of society willing to believe
an inmate's claim to innocence. The public, including
Mr. Summers, has a right under Ohio's Public Records
Act to access public documents related to J.K.'s public
accusations, and so state documents related to the
investigation of her public accusations about
Christopher Summers are public records.
Petitioners propose a Kafkaesque legal system
whereby secret investigations take place outside of the
public view, only to be placed on a choreographed stage
at trial. Under their view, the public would have no
right to review investigative records related to sexual
crime investigations, they would be stuck with what
information the government presents at a public trial.
Such a proposal is grotesquely inapposite to the
American justice system.
The Court should not forget that public records have
been used many times by the public to critique and
vindicate public officials on every level and branch of
government. While alleged victims have a right to
make public claims about sexual misconduct, so too
does the accused have a right to access public records
° See State ex rd. Caster, supra, 89 N.E.3d at 601, 608-9.

18
that could prove their innocence. In this day and age,
allowing people to publicly claim sexual misconduct
while hamstringing the accused's ability to gather and
present exonerating public records would result not
only in unfair trials, but also unfair elections and
unfair proceedings related to government
appointments.
Moreover, artificially creating a federal "right tie
privacy" to interfere with state sunshine laws would
provide blanket fodder for law enforcement and
prosecutors who wish to cover up potential wrongdoing,
such as racially motivated policing and wrongful
convictions. Undoubtedly, this new ammunition will be
used to prevent the public from reviewing and
criticizing law enforcement actions. As mentioned
above, it would likely prevent those publicly accused of
sexual misconduct (usually men) from obtaining
exonerating evidence. The further strain this will place
on citizens' right to equal protection under the law is
the opposite thing this divided country needs during
these unprecedented times when racially motivated
policing and unfair public sexual harassment claims
are becoming issues of increasing public concern.
B. Ohio's Public Records Act is narrowly
tailored to a compelling government
interest
As this Court has never recognized a "privacy right"
that blocks the release of public records, it is unclear
what standard of review is appropriate. In NASA v.
Nelson, the Court analyzed the government employee's
alleged privacy right under a rational basis standard
(without deciding that such a privacy right to prevent

19
disclosure of information actually exists). See 562 U.S.
at 138, 151-52.
Assuming, arguendo, that a right to privacy does
exist that would allow a citizen to block the release of
public records, J.K.'s arguments fail even under strict
scrutiny. As J.K. notes, the Sixth Circuit has
recognized that details released in trial or released as
necessary to apprehend a suspect may constitute a
compelling interest. J.K.'s Petition for Certiorari, pp. 89, citing Bloch, 156 F.3d at 686. Similarly, the public's
oversight of the state's investigatory, prosecutorial,'
and judicial systems is a compelling government
interest as well See State ex rel. Caster, supra, 89
N.E.3d at 601, 608-9; c.f. Press-Enter. Co. v. Superior
Ct. of California, Riverside Cty., 464 U.S. 501, 510
(1984) ("Where ... the State attempts to deny the right
of access in order to inhibit the disclosure of sensitive
information, it must be shown that the denial is
necessitated by a compelling governmental interest,
and is narrowly tailored to serve that interest.") (citing
Globe Newspaper Co. v. Superior Court, 457 U.S. 596,
606-607 (1982)).6

6 By disclosing public records related to law enforcement
investigations and public trials, the public can assess aspects of
the state's prosecutorial system (e.g., whether the defendant was
appropriately charged). Ohio's Public Records Act and the Ohio
Supreme Court's decision in this case still protect the state's
prosecutor's trial preparation materials from public disclosure.
See O.R.C. § 149.43(A)(1)(g); State ex rel. Summers, 2020 WL
7250544 at **8-9, 2020-Ohio-5585 at ¶¶ 46-52.

6 While this mandamus action was pending, Fox filed a sixty-two
count indictment against Mr. Summers. State of Ohio u. Summers,

20
The Public Records Act is narrowly tailored by its
numerous defined exemptions to protect victims'
privacy. The Ohio legislature has designated thirtynine exceptions to the Public Records Act, many of
which are designed to protect the privacy of crime
victims. See O.R.C. § 149.43(A). The exceptions to
public records include:
Images or videos depicting the victim during the
sexually oriented criminal offense or that depict the
victim in a manner that is "offensive and [an]
objectionable intrusion into the victim's expectation
of bodily privacy," O.R.C. § 149.43(A)(1)(ii);
Confidential law enforcement investigatory records,
O.R.C. § 149.43(A)(1)(h);
Information that would disclose a confidential
informant's identity, O.R.C. § 149.43(A)(2)(b); and

Mercer C.P. No. 19-CRM-107; see also State ex rel. Summers, 2020
WL 7250544 at *2, 2020-Ohio-5585 at ¶ 13. Fox then attempted to
use Mr. Summer's assertion of his Fifth Amendment right to
discredit him. Respondents' Merit Brief, State ex rel. Summers,
Sup. Ct. Ohio Case no. 2018-0959 (filed Aug. 21, 2019), p. 3, fn. 1.
Fox also pressed criminal charges against the alleged host of a
website after he submitted a Public Records Act request to Fox.
See State of Ohio v. Rasawehr, Celina M.C. No. 16CRB00943.
Without accusing Fox of misconduct, the suspicious timing of his
criminal prosecutions against citizens requesting public records
about investigations he coordinated, and attempting to use those
prosecutions to discredit those requesting public records,
highlights why the public has a right to access public records to
verify that his actions are in the pursuit of justice, rather than to
simply shield himself from scrutiny.

21
"Information that would endanger the life or
physical safety of [...] a crime victim," O.R.C.
§ 149.43(A)(2)(d).
In its twenty-eight-page Opinion, the Ohio Supreme
Court exhaustively reviewed the issues and statutory
exceptions raised by J.K., Fox, and Grey. Not a single
justice in the majority or dissent held that J.K.'s
federal right to privacy should block the release of
public records. See 2020 WL 7250544 at "15-17, 2020Ohio-5585 at at 111 90-107 (French, J., concurring in
part and dissenting in part). With the exception of two
prosecutorial trial preparation interviews, the Court
ordered Fox and Grey to turn over all the public
records requested, unredacted. Id. at 2020 WL 7250544
at *14, 2020-Ohio-5585 at ¶ 89.
Mr. Summers has not sought any pictures or videos
that would depict J.K. during a sexual offense. Nor has
he sought any pictures or videos that would contain a
depiction of J.K. that was offensive and an objective
intrusion into J.K.'s expectation of bodily privacy. Mr.
Summers simply requested videos depicting interviews
that law enforcement conducted with J.K., which J.K.
later publicly testified about.
J.K. is not a confidential informant, as J.K. publicly
testified about her accusations during Christopher
Summers' trial. J.K. has never claimed the State
promised her that her interviews with law enforcement
would be confidential. Similarly, none of the
information requested would endanger J.K.'s physical
safety. J.K. has already publicly testified against
Christopher Summers and revealed her identity.

22
The Ohio legislature and Ohio Supreme Court have
considered J.K.'s privacy rights and balanced them
against the public interest in access to government
documents, especially documents related to criminal
proceedings. The thirty-nine exceptions demonstrate
that Ohio's Public Records Act is narrowly tailored to
the State's compelling government interests in making
criminal investigations public; providing open, public
trials; and correcting wrongful convictions to
apprehend actual perpetrators.
C. Petitioners lack Article III standing
Fox, Grey, and J.K. lack standing to appeal the writ
of mandamus, which was issued against Respondent
Fox. The Supreme Court has recognized three
components of standing under Article III: (1) injury-infact, (2) causation, and (3) redressability. Lexmark Int'l,
Inc. b. Static Control Components, Inc., 572 U.S. 118,
125 (2014) ("The plaintiff must have suffered or be
imminently threatened with a concrete and
particularized 'injury in fact' that is fairly traceable to
the challenged action of the defendant and likely to be
redressed by a favorable judicial decision."). Fox and
Grey do not have standing to raise J.K.'s privacy right,
even if one existed. See Heald v. District of Columbia,
259 U.S. 114, 123 (1922).
J.K. cannot claim she has been injured when she
has no right to informational privacy. She cannot show
causation because she merely seeks to block Mr.
Summers from requesting public records, a request
which does not impair her alleged rights. Lastly, she
cannot show redressability, as Fox claims Mr.

23
Summers has received all of the public records he
requested, so the issues are moot.
J.K. cannot show injury. "In order to satisfy Art. III,
the plaintiff must show that [s]he personally has
suffered some actual or threatened injury as a result of
the putatively illegal conduct of the defendant."
Gladstone Realtors v. Vill. of Bellwood, 441 U.S. 91, 99
(1979). "The plaintiff must show that [s]he 'has
sustained or is immediately in danger of sustaining
some direct injury' as the result of the challenged
official conduct and the injury or threat of injury must
be both 'real and immediate,' not 'conjectural' or
`hypothetical."' City of Los Angeles v. Lyons, 461 U.S.
95, 101-02 (1983). "[P]ast exposure to illegal conduct
does not in itself show a present case or controversy
regarding injunctive relief ... if unaccompanied by any
continuing, present adverse effects." City of Los Angeles
v. Lyons, 461 U.S. 95, 102 (1983).
J.K. has no injury, because she has no privacy right
at issue. See supra, section III(A). Even if she has a
privacy right, Ohio's Public Records Act does not offend
her substantive due process rights. See supra, section
III(B). Moreover, it is unclear how Mr. Summers'
receipt of voluntary interviews she gave to law
enforcement officers and discussed at a public trial
injure her.
Mr. Summers' mandamus action did not cause her
alleged injury. Mr. Summers simply asked the Ohio
Supreme Court to order public officials to disclose
public records he is entitled to seek under Ohio law.
Thus, even if J.K. is injured, Mr. Summers is not
causing her injury in this case, as he is simply a citizen

24
requesting information, he is not the government
official disclosing the personal information she seeks to
protect.
Lastly, this case is moot, as J.K. cannot show
redressability as Fox has claimed Mr. Summers has
received all of the public records in dispute. "Federal
courts lack jurisdiction to decide moot cases because
their constitutional authority extends only to actual
cases or controversies." Iron Arrow Honor Soc'y v.
Heckler, 464 U.S. 67, 70 (1983). "The decision to seek
review is not to be placed in the hands of concerned
bystanders, persons who would seize it as a vehicle for
the vindication of value interests. An intervenor cannot
step into the shoes of the original party unless the
intervenor independently fulfills the requirements of
Article III." Arizonans for Off. Eng. v. Arizona, 520 U.S.
43, 64-65 (1997) (internal citations and quotations
omitted). Mercer County has stated that Mr. Summers
has already received the public records he requested
from Fox and Grey, so J.K.'s request for certiorari is
moot, and the Court will not be able to provide her any
redress. The Petitioners lack standing, and so the
Court lacks Article III jurisdiction.
III.

This case is a poor vehicle for resolving
this issue

This odd procedural posture of the case should
preclude the Court from accepting it for review. The
ramifications of a federal court sanctioning a third
party's intervention in a state mandamus lawsuit
between a citizen and public official to block the release
of public records under state law are unimaginable.
J.K.'s resort to a slippery slope argument is unavailing,

25
as this Court's caselaw on the right to privacy has not
created a backlog of litigation Instead, permitting her
intervention would result in a virtual freeze in the
administration of the various state and federal
sunshine laws while government officials and courts
struggled to interpret when, how, and to what extent
witnesses could intervene in administrative and
judicial proceedings to block the release of public
records.
Recognizing such a vast right to privacy in this
context would raise innumerable issues about how that
right interacts with other constitutional rights. For
example, does Brady u. Maryland need to be revisited
to clarify whether a criminal defendant has the right to
exculpatory evidence when the evidence infringes on
the victim's so-called right to privacy? See generally 373
U.S. 83 (1963). Moreover, the ability of criminal
defendants and the public to discover Brady violations
or other prosecutorial misconduct would be crippled by
government officials blocking sunshine laws because of
the victim's alleged right to privacy.
As mentioned supra, Petitioners' position is not
even within the realm of the federal circuit split
regarding whether a right to informational privacy
even exists. The side most favorable to Petitioners still
rejects their position, as not a single circuit court has
held that an individual can block public records when
the release of the public records has a penological
purpose. The Court should address the issue of whether
individuals have a right to block the gratuitous release
of sexual information when doing so does not serve a
penological purpose before expanding that right to

26
allow a trial witness to block the release of public
records related to her public testimony at a criminal
trial.
There is no compelling reason to review
this issue now
Less than six months ago, the Court rejected a
similar petition for certiorari inviting it to vastly
expand the right to privacy under the Fourteenth
Amendment. See Parents for Priv. v. Barr, 949 F.3d
1210, 1221-26 (9th Cir. 2020) (affirming the district
court's dismissal of the plaintiffs' claim for violation of
privacy rights under the Fourteenth Amendment's Due
Process Clause), cert. denied sub nom. Parents for Priv.
v. Barr, 141 S. Ct. 894 (Dec. 7, 2020). There is no
reason the Court should overrule its Fourteenth
Amendment precedent now.
Conclusion
Mr. Summers respectfully requests the Court deny
J.K.'s Petition for a Writ of Certiorari.
Respectfully submitted,
H. LOUIS SIRKIN
Counsel of Record
JOHN D. HOLSCHUH III
SANTEN & HUGHES
600 Vine Street
Suite 2700
Cincinnati, OH 45202
(513) 721-4450
hls@santenhughes.com
Counsel for Respondent

